 




    NATIONAL INSTITUTE OF
    STANDARDS AND
    TECHNOLOGY
    Oversight Activities of
    NIST’s Recovery Act
    Construction Contracts
    Need Improvement




    FINAL REPORT NO. OIG-12-028-A
    JUNE 1, 2012



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation

    For Public Release




 
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Office of Inspector General
                                                      Washington, D.C. 20230



June I, 2012

MEMORANDUM FOR:               Dr. Patrick Gallagher
                              Under Secretary of Commerce for Standards and Technology
                              National Institute of Standards and Technology


FROM:                         Ann c. Eilers
                              Principal
                                            ~~              ef{L
                                       Assista~spector General for Audit and Evaluation
                                                  f1w.­



SUBJECT:                      Oversight Activities of NISrs Recovery Act Construction
                                  Contracts Need Improvements
                              Final Report No. 0/G-12-028-A

We are providing for your review our final audit report on the effectiveness of NISrs oversight
and activities to manage American Recovery and Reinvestment Act of 2009 (Recovery Act)
awards given through the NIST construction contract program. Our audit objectives were to
determine whether NISrs (I) policies and procedures were sufficient for evaluation of cost,
specifications, and performance results, (2) contract award and administrative practices
complied with applicable laws and regulations, including specific Recovery Act requirements,
and (3) acquisition staff communicated problems with the projects to NIST management.

We found deficiencies both in NIST operating procedures and its oversight practices.
Specifically, inadequate controls over contract extensions jeopardized timely completion of
projects, inadequate oversight allowed noncompliance with Buy American requirements and
inaccurate and incomplete Recovery Act postings on government websites, and inadequate
controls led to deficiencies in award administration. With tens of millions of dollars of Recovery
Act funds remaining, NIST needs to strengthen its oversight of these construction projects.

We have received your response to our draft report. Where appropriate, we have modified
this final report based on this response. The formal NIST response is included in appendix C.
(We summarized your response, and OIG comments, on page 18.) The final report will be
posted on OIG's website pursuant to section 8L of the Inspector General Act of 1978, as
amended.

In accordance with Department Administrative Order 213-5, within 60 days of the date of this
memorandum, please provide us with an action plan that responds to all of the report
recommendations.

Please direct any inquiries regarding this report to Johnny Dawsey, Audit Manager, at (404)
730-2056, or Rebecca Leng, Senior Advisor, at (202) 482-8294, and refer to the report title in
all correspondence. To meet the deadline, you may transmit your response via e-mail to
jdawsey@oig.doc.gov, but please submit a hardcopy version of your comments immediately
thereafter.

Attachment
cc: 	 Ellen Herbst, Senior Advisor to the Deputy Secretary
      David Robinson, Associate Director for Management Resources, NIST
      Michael Herman, Executive Officer for Administration, NIST
      George E. Jenkins, Chief Financial Officer, N1ST
      Stella S. Fiotes, Chief Facilities Management Officer, NIST
      Cecelia Royster, Chief, Acquisition Management Division, NIST
      Rachel Kinney, Audit Liaison, NIST
                                            Report In Brief                                        J U NE 1 , 2 0 1 2




Background                            NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
The American Recovery and             Oversight Activities of NIST’s Recovery Act Construction
Reinvestment Act of 2009 (the
Recovery Act) appropriated            Contracts Need Improvement
$360 million to NIST to con-
                                      OIG-12-028-A
struct research facilities, includ-
ing $180 million in contracts for
the construction and renovation       WHAT WE FOUND
of research facilities on NIST’s      We found deficiencies in NIST’s operating procedures and oversight practices.
headquarters in Gaithersburg,         With tens of millions of dollars of Recovery Act funds remaining, NIST needs to
Maryland, and NIST’s campus in        strengthen its oversight of these construction projects.
Boulder, Colorado.
                                      Inadequate controls over contract extensions jeopardized timely completion of projects.
The construction projects, as         Contracts and task orders were extended after they had passed the end of the
initially proposed, included a
                                      performance period specified in the contracts—116 days after expiration in one
precision measurement labora-
                                      case. Without accountability, contracts are not on track for completion.
tory; maintenance and repair
projects to enhance NIST’s aging      Lack of adequate oversight allowed noncompliance with the Buy American provision of the
facilities; Center for Neutron        Recovery Act.. NIST Boulder management allowed contractors to install products
Research expansion for a high-        made in Germany and China without waivers. The process of reviewing and
efficiency cooling system and         approving Buy American exceptions was untimely and inconsistent.
supporting infrastructure; and a
National Structural Fire Resis-       Lack of adequate oversight resulted in inaccurate/incomplete data posted on government
tance Laboratory, to study how        websites. Five contractors reported zero jobs created/retained after spending $12.7
fires start.                          million in Recovery Act funds. Also, incorrect contract end dates were posted on
                                      government websites.
Why We Did This Review
                                      Inadequate controls led to deficiencies in award administration. NIST did not
The purpose of our review of          consistently obtain legal reviews before contract issuance or issue timely
the Recovery Act construction         contracting officer’s technical representative (COTR) representation letters.
contracts was to determine            Contractors did not conduct timely fraud training.
how effectively NIST was moni-
toring the contracts and using        WHAT WE RECOMMEND
the results of its monitoring to
improve the acquisition pro-          We recommend that the Under Secretary of Commerce for Standards and
gram. Our audit objectives            Technology direct NIST to:
were to determine whether
NIST’s (1) policies and proce-        • 	 Establish standard operating procedures (SOPs) for reviewing, monitoring, and
dures were sufficient for evalua-         approving contracts for extensions. Extend the performance period for six
tion of cost, specifications, and         contracts that missed or are at risk of missing their performance end dates and
performance results, (2) con-             create a management tool for monitoring the progress of construction
tract award and administrative            contracts.
practices complied with applica-
ble laws and regulations, includ-     • 	 Update the SOPs for Buy American exception determinations and waiver
ing specific Recovery Act re-             approvals. Conduct Buy American procedures training for staff.
quirements, and (3) acquisition       • 	 Provide training to staff and contractors on Recovery jobs calculation formula
staff communicated problems               and ensure that data are correctly posted on government websites.
with the projects to NIST man-
agement.                              • 	 Review the contract award process to correct inconsistencies in obtaining legal
                                          reviews, issuing COTR letters, and conducting fraud prevention training.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
   Monitoring Challenges Facing NIST .........................................................................................................2
 
   Audit Objectives ...........................................................................................................................................3
 
Findings and Recommendations ....................................................................................................................4
 
   I.  	 Inadequate Controls over Contract Extensions Jeopardized Timely Completion of 

         Projects ...................................................................................................................................................4
 
       A.  Recovery Act Contract and Task Order Extensions Were Not Approved in a Timely 

           Manner, Affecting Contract Performance .....................................................................................5
 
       B.  Without Accountability, Recovery Act Contracts Are Not on Track for Completion .....5
 
   Recommendations........................................................................................................................................6
 
   II.	  Lack of Adequate Oversight Allowed Noncompliance with the Buy American 

         Provision of the Recovery Act...........................................................................................................7
 
       A.  The Process of Reviewing and Approving Buy American Exceptions (Waivers) Was 

           Untimely and Inconsistent .................................................................................................................8
 
       B.  The “Non-availability” Determination Was Not Made Before Contract Award.............. 10
 
   Recommendations..................................................................................................................................... 11
 
   III.	  Lack of Adequate Oversight Resulted in Inaccurate/Incomplete Recovery Act Data 

          Posted on Government Websites ................................................................................................. 12
 
       A.  The Number of Jobs Created and Retained with the Recovery Act Funds Was 

           Underreported ................................................................................................................................. 12
 
       B.  Incorrect Contract End Dates Were Posted in the FPDS-NG ............................................. 13
 
   Recommendations..................................................................................................................................... 14
 
   IV. Inadequate Controls Led to Deficiencies in Award Administration ........................................ 15
 
       A.  NIST Did Not Consistently Perform Legal Reviews................................................................ 15
 
       B.  NIST Did Not Reinforce Contract Management Responsibilities by Issuing Timely 

           COTR Delegation and Appointment Letters ............................................................................ 16
 
       C. Contractors Did Not Conduct Timely Recovery Act Fraud Training................................. 17
 
   Recommendations..................................................................................................................................... 17
 
Summary of Agency Response and OIG Comments............................................................................. 18
 
Appendix A: Objectives, Scope, and Methodology............................................................................... 20
 
Appendix B: Recipient Information............................................................................................................ 22
 
Appendix C: Agency Response................................................................................................................... 23
 
           




FINAL REPORT NO. OIG-12-028-A
  DEPARTMENT OF COMMERCE
U.S.                                                                                        OFFICE OF INSPECTOR GENERAL


Introduction 

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
20091 (the Recovery Act) into law. The Recovery Act appropriated $360 million2 to NIST for
construction of research facilities, including $180 million available to NIST for the construction
and renovation of research facilities on NIST’s headquarters in Gaithersburg, Maryland, and
NIST’s campus in Boulder, Colorado. According to NIST, $172 million would fund construction
projects, and $8 million would fund in-house oversight and construction management support
to these projects.

The $172 million in construction projects, as initially proposed, included the following: (1) $68.5
million for a precision measurement laboratory at NIST’s site in Boulder; (2) $31 million for
maintenance and major repair projects to enhance the performance of NIST’s aging facilities in
Gaithersburg; (3) $16 million for the Center for Neutron Research (NCNR) expansion for a
high-efficiency cooling system and supporting infrastructure in Gaithersburg; (4) $16 million for
a National Structural Fire Resistance Laboratory, to study how fires start and could be
prevented and suppressed, in Gaithersburg; (5) $15 million for design and construction of new
time-code radio broadcast stations in separate locations around the country;3 (6) $9 million for
relocation and consolidation of advanced robotics and logistics operations in Gaithersburg; (7)
$7.5 million for the construction of a liquid helium recovery system both in Gaithersburg and
Boulder; (8) $7 million for design and construction of an emergency services consolidated
station in Gaithersburg; and (9) $2 million for a Net-Zero Energy Residential Test Facility in
Gaithersburg (see figure 1 below).

Figure 1. Allocation of NIST Recovery Act Funds (in millions)
     Liquid         Emergency Services                                                         Net‐Zero Test 
    Helium,             Consolidated                                                            Facility, $2
      $7.5               Station, $7
           Robotics & 
          Logistics, $9                                                 Measurement Lab. 
       Synchronization,                                                   In CO, $68.5 
             $15
    Fire Laboratory, $16
                                                                NIST's Aging 
                                                               Facilities, $31
                             NCNR‐Neutron 
                             Research, $16



Source: Data from Recovery.gov

                                                            
1
  Pub. L. No. 111-5. 

2
  $180 million was allocated for construction contracts, discussed in this report, and $180 million was allocated for 

construction grants, discussed in the following report: U.S. Department of Commerce Office of Inspector General, 

February 14, 2012. Oversight Activities of NIST’s Recovery Act Construction Grant Awards Are Generally Effective but Need 

Improvements, OIG-12-020-A. Washington, D.C.: Department of Commerce OIG.

3
  According to NIST, this project did not take place.



FINAL REPORT NO. OIG-12-028-A                                                                                            1
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

By September 23, 2010, NIST had awarded 18 firm-fixed-price Recovery Act construction
contracts, totaling $175.7 million4 (see appendix B). Fifteen of the contracts, totaling $88.7
million, were for construction projects at NIST’s Gaithersburg, Maryland, campus; two
contracts, totaling $85.6 million, were for construction projects at NIST’s Boulder, Colorado,
campus; and one contract, totaling $1.4 million, was for a construction project in Kekaha,
Hawaii (managed by the Boulder office).

Monitoring Challenges Facing NIST

NIST’s Acquisition Management Division (AMD) provides professional acquisition support
services, planning guidance, and policy services and handles the administration of contracts for
both the Gaithersburg and Boulder staff. AMD created specific guidance documents to assist
both staff and recipients with Recovery Act requirements (e.g., Recovery Act—Buy American
Act for Construction Materials, Recovery Act—Public Posting and Reporting Requirements,
and Fraud Prevention Training Requirements).

NIST’s Office of Facilities and Property Management (OFPM) provides facilities design,
construction, engineering, maintenance, and support services for both the Gaithersburg and
Boulder staff. Both AMD and OFPM are part of NIST’s Office of Management Resources and
provide joint oversight for the 18 Recovery Act construction contracts. See table 1 for some of
the joint oversight responsibilities assigned to both offices.

Table 1. Recovery Act Contract Oversight Responsibilities
Oversight Responsibilities                                                      AMD              OFPM
Maintain official contract award files                                             3
Establish divisional staff policies                                                3                3
Receive and review recipient submittals (financial reports)                        3                3
Monitor project activities to ensure project goal achievements                     3                3
 Review performance reports for consistency with the approved project              3                3
Ensure recipient compliance with award conditions                                  3                3 
Review and approve or disapprove modifications, 
including time extensions 
                                                                                   3                3 
Provide acquisition guidance/technical assistance to recipients                    3                3 
Source: NIST

Even with an established contract construction program, NIST still risks not having appropriate
and adequate monitoring processes in place. Monitoring challenges include oversight of the
Recovery Act contract extensions, proper enforcement of the Buy American provision
requirements, review of Recovery Act recipient data on government websites for transparency,
and control over the contract administration process.


                                                            
4
 According to NIST, 1 of the 18 contracts (L&M Construction) received $2.8 million funded with Recovery Act
Science and Technical Research and Services funds.


FINAL REPORT NO. OIG-12-028-A                                                                                 2
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Audit Objectives

The purpose of our review of the Recovery Act construction contracts was to determine how
effectively NIST was monitoring the contracts and using the results of its monitoring to
improve the acquisition program. Our audit objectives were to determine whether NIST’s (1)
policies and procedures were sufficient for evaluation of cost, specifications, and performance
results, (2) contract award and administrative practices complied with applicable laws and
regulations, including specific Recovery Act requirements, and (3) acquisition staff
communicated problems with the projects to NIST management. See appendix A for details
regarding our audit objectives, scope, and methodology.




FINAL REPORT NO. OIG-12-028-A                                                                     3
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
I. 	          Inadequate Controls over Contract Extensions Jeopardized Timely
              Completion of Projects

NIST is not proactively managing and monitoring the progress and completion of the 18
Recovery Act construction contracts. For example, while NIST uses a master schedule to
manage and monitor the progress and completion of Recovery Act construction projects
awarded to its grant recipients,5 NIST does not take the same approach in monitoring the
progress of its own construction projects. In response to our draft report, NIST stated that it
has established biweekly Recovery Act management meetings and a comprehensive spreadsheet
to monitor and track project performance.

Among the 18 Recovery Act–funded construction projects, the performance period (for
completing construction work) was extended for four projects only after the performance
period specified in the contract had expired—in one case as late as 116 days after expiration.
Currently, contractors for six projects have either missed or are at risk of missing the current
performance end dates.

Timely completion of construction work for intended use, such as improving energy efficiency,
is critical to achieving expected returns for responsible spending of taxpayers’ money. In a
March 4, 2009, White House memorandum, the President advised: “The Federal Government
has an overriding obligation to American taxpayers. It should perform its functions efficiently
and effectively while ensuring that its actions result in the best value for the taxpayers.”6
Although contractors were awarded firm-fixed-price contracts to carry out the projects,
schedule delays may increase costs, which are an issue in today’s constrained budget
environment.

NIST officials informed us that they have various project management tools in place, such as
daily site visits by the contracting officer’s technical representatives (COTRs); daily reports
from the contractors; biweekly or weekly progress meetings between the contractors, COTRs,
and contract specialists; schedules; and monthly invoices from the contractors. However, NIST
has no established procedures for evaluating and approving requests to extend the contract
performance period. Consequently, it is difficult for NIST to hold contractors accountable for
timely completion of construction projects.




                                                            
5
  Commerce OIG, Oversight Activities of NIST’s Recovery Act Construction Grant Awards Are Generally Effective but Need
Improvements.
6
  White House Memorandum for the Heads of Executive Departments and Agencies, “Government Contracting,”
March 4, 2009.


FINAL REPORT NO. OIG-12-028-A                                                                                        4
  DEPARTMENT OF COMMERCE
U.S.                                                                       OFFICE OF INSPECTOR GENERAL

      A.	 Recovery Act Contract and Task Order Extensions Were Not Approved in a Timely Manner,
          Affecting Contract Performance

As of December 31, 2011, NIST had approved contract extensions for 4 of the 18 contracts
(see table 2). However, NIST approved extensions after the performance end date for all 4
contracts. NIST approved three contract extensions 1–16 days after the performance period
end dates. The fourth contract needed extensions on all eight of its task orders, and NIST
approved five of the extensions 26–116 days after the performance period end dates.

Table 2. Late Contract Extensions
           Contractor             Contract     Performance      Date            Days
                                  Amount        End Dates     Contract       Difference
                                                              Extension
                                                              Approved
      1.   Biscayne Contractors   $2,265,265    9/22/2011      9/23/2011          1
      2.   McHenry Inc.            561,982      11/22/2011    11/29/2011          7
      3.
       Universal Business
                                  1,058,229     8/15/2011      8/31/2011         16
       Solutions
    4. L&M Construction
 1. Task Order No. 10428           324,585      2/27/2011      3/28/2011         29
 2.    Task Order No. 10429        110,140      2/27/2011      3/25/2011         26
 3.    Task Order No. 10430        278,075      5/28/2011       8/9/2011         73
 4.    Task Order No. 10453        131,280      5/28/2011      7/14/2011         47
 5.    Task Order No. 10454        195,126      5/28/2011      9/21/2011         116
Source: OIG, data obtained from NIST

Although NIST officials provided reasonable explanations (such as change orders and
construction material negotiations) for the untimely contract extensions, they did not explain
why they did not take a more proactive approach to the oversight and management of these
contracts. The untimely extensions affected contract performance completion because they
reduce contractor incentive to finish on time.

This happened largely because NIST does not have standard operating procedures (SOPs) for
reviewing and approving contract extensions. For example, Federal Acquisition Regulation
(FAR) subpart 52.217-9 requires that contracts include a clause specifying how to exercise the
option to extend the contracts’ terms. Only 2 of the 18 contracts included an extension clause.

      B.	 Without Accountability, Recovery Act Contracts Are Not on Track for Completion

As of December 31, 2011, 6 of the Recovery Act contracts either had missed or were at risk
for missing their performance end dates (see table 3). Five of the 6 contracts had completion
rates of 53 percent or less while completion performance end dates were 1 to 4 months away.
It did not seem likely that the contractors would complete these projects on time without
contract extensions. NIST agreed with our assessment and agreed to reassess project
performance for extension consideration.


FINAL REPORT NO. OIG-12-028-A                                                                       5
  DEPARTMENT OF COMMERCE
U.S.                                                                                               OFFICE OF INSPECTOR GENERAL

One contract had passed its original performance end date by more than seven months and its
revised end date by more than 5 months (see last row of table 3 and note b). NIST stated that
they had issued a cure notice7 to this contractor on October 19, 2011, because of pending
performance issues and that NIST was currently negotiating change orders with this contractor.
NIST stated that no payments have been issued to the contractor since stoppage of the
contract work. However, as of February 2, 2012 (or 4 months from the contract’s last
approved completion end date), this issue still had not been rectified. As a result, there is no
updated target date to complete the construction work specified in this contract.

Table 3. Contracts at Risk for Missing Performance End Date (as of December 31, 2011)
       Contractor                    Contract                  Contract    Period of      Period of     Performance    Percent of
                                     Amount                     Award      Performance    Performance   Period          Project
                                                                 Date      End Date       (in months)   Percentage     Complete
                                                                                                        Lapse             as of
                                                                                                        12/31/2011a    12/31/2011

1 SEI Group                        $ 8,330,395                 9/23/2010     4/27/2012        19            80%           24%

2    Grimberg/                     $24,842,996                 9/23/2010     5/6/2012         20            79%           33%
     Amatea JV

3      J&L Mavilia                 $12,297,793                 8/9/2010      3/26/2012        20            86%           41%

4      Milestone                   $ 6,273,741                 7/21/2010     3/22/2012        20            87%           47%

5      Milestone                   $ 5,912,254                 7/26/2010     2/29/2012        19            90%           53%

6    Universal                     $1,058,229                  8/9/2010     10/31/2011b       15           114%           64%
     Business
     Solutions

Source: OIG, from NIST data
a
  Computed as the number of days completed on the project as of 12/31/2011 divided by the number of total days
to complete the project, per the contract.
b
  This contract had an original performance end date of 8/15/2011, but NIST granted an extension after that end
date had passed (see table 2).

Recommendations

We recommend that the Under Secretary of Commerce for Standards and Technology direct
NIST AMD and OFPM officials to accomplish the following:

       1.	 Establish standard operating procedures for reviewing, monitoring, and approving
            contracts for extensions in a timely manner.
       2. 	 Extend the performance period for the six contracts that either have missed or are at
            risk of missing their performance end dates and create a master schedule–type


                                                            
7
 A cure notice is issued by the government to inform the contractor that the government considers the
contractor’s failure a condition that is endangering the performance of the contract.


FINAL REPORT NO. OIG-12-028-A                                                                                               6
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

             management tool for better oversight and monitoring of the contracts to prevent
             additional slippage.
        3. 	 Develop a plan to complete the construction work specified in the Universal Business
             Solutions contract.

II. 	       Lack of Adequate Oversight Allowed Noncompliance with the Buy
            American Provision of the Recovery Act

For 4 of the 18 Recovery Act contracts, the contractors requested exceptions/waivers to the
Buy American provision of the Recovery Act. NIST denied one and approved two requests. It is
currently reviewing the fourth request (see table 4). We also found that NIST Boulder
management allowed four foreign-made products to be installed without a waiver from the
NIST Director or even an evaluation of the justifications submitted by contractors (see
requests 3 and 4 in table 4).

Table 4. Status of Buy American Exception Requests
         Awarding        Contractor       Foreign-Made Items (Total cost)            Installed        Waiver
          Office           (Award                                                                    Approval
                            Date)
1       Gaithersburg    Biscayne          Construction fitting material          n/a             Denied
                        (7/10)
2       Gaithersburg    Therrien          Heat recovery ventilator ($1,600)      Scheduled for   Waiver
                        Waddell                                                  4/12            approved
                        (9/10)                                                                   (10/11) 
3       Boulder         Adon              Solar inverters ($70,000)              7/10a           Waiver
                        Construction                                                             approved
                        (5/10)                                                                   (12/11) 

4       Boulder         Whiting-         1. Fluorescent tubes ($107,000)         6/11 a          Pending
                        Turner (4/10)                                                             
                                         2. GE T-5 lamps ($27,000)               9/11 a          Pending 
                                                                                                  
                                         3. Elec. floor box trim ($3,000)        1/12 a          Pending 
                                                                                                  
                                         4. Power supplies & cord ($17,000)      Unscheduled     Pending 
                                                                                                  
                                         5. UPS backup power supply ($20,000)    Unscheduled     Pending 
                                                                                  
                                         6. AC ring generators ($2,000)          Unscheduled     Pending 


a
    Installation took place before waiver was approved.

Section 1605 of the Recovery Act incorporated a “Buy American” provision, stipulating that a
public building would not receive funding under the Act unless all of the iron, steel, and
manufactured goods used in the project were U.S.-produced. The Act provides that this Buy
American requirement shall not apply, however, if the head of an agency finds that there is non-
availability of American-produced items, use of American-produced items would unreasonably


FINAL REPORT NO. OIG-12-028-A                                                                                   7
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

increase project costs, or that application is otherwise inconsistent with public interest. Where
the agency head waives application of the Buy American provision, the Act requires that the
waiver determination be published in the Federal Register.

To implement the Buy American provision and its corresponding regulation in FAR subpart
25.6, “American Recovery and Reinvestment Act—Buy American Act—Construction
Materials,” NIST issued SOP NIST-08-09 in August 2009. FAR subpart 25.603 and NIST-08-09
require that exception determinations be made based on the following grounds before foreign-
made products may be installed:

              1.	 Non-availability. The United States does not produce iron, steel, and other relevant
                  manufactured goods in sufficient and reasonably available quantities or of a
                  satisfactory quality. According to the FAR, non-availability of construction material
                  must be determined by the head of the contracting activity.

              2.	 Unreasonable costs. Inclusion of iron, steel, and manufactured goods produced in the
                  United States will increase the overall project cost by more than 25 percent. The
                  contracting officer shall make this determination.

              3.	 Inconsistent with public interests. According to the FAR, only the head of the agency
                  can make this determination. The Department of Commerce has re-delegated this
                  function to the Chief Financial Officer.

Moreover, the FAR requires that a notice (waiver) be published in the Federal Register by the
head of the agency within 3 days of the inapplicability determination.8 In November 2010, the
Commerce Secretary delegated the authority to issue and publish waivers to the NIST
Director.

We identified that NIST untimely and inconsistently reviewed and approved Buy American
exceptions (waivers) and that the required “non-availability” exception determination was not
made before a contract award. As a result, NIST may not have achieved the intent of the Buy
American provision: helping the U.S. economy. As of December 2011, NIST had expended
about 67 percent of Recovery Act funds obligated to these construction contracts. With $58
million remaining to be spent, NIST needs to strengthen its process of reviewing and approving
Buy American exceptions.

       A.	 The Process of Reviewing and Approving Buy American Exceptions (Waivers) Was Untimely and
           Inconsistent

NIST Gaithersburg management properly followed the SOP by making an exception
determination for each contractor’s request for Buy American exceptions, obtaining waivers
from the NIST Director, and posting the waiver in the Federal Register before allowing a
contractor to install a foreign-made product. However, NIST Boulder management allowed


                                                            
8
 The original version of the FAR and NIST SOP required publication of the waiver approval in the Federal Register
within 2 weeks.


FINAL REPORT NO. OIG-12-028-A                                                                                       8
  DEPARTMENT OF COMMERCE
U.S.                                                                                                 OFFICE OF INSPECTOR GENERAL

contractors to install foreign-made products (made in Germany and China) without obtaining
waivers from the NIST Director or even before they completed an exception determination.

Table 5. Timing of Installation of Foreign-Made Products
NIST                         Contractor                        NIST Notified    NIST             NIST Director   NIST Posted
Management                                                     of the Need      Completed        Approved        Waiver on
                                                               for Exception?   Exception        Waiver?         Fed. Register?
                                                                                Determination?
Gaithersburg                 Therrien Waddel                   Y                Y                Y               Y
Boulder                      Adon                              Y                N                N               N
Boulder                      Whiting-Turner
                             • Product 1                       Y                N                N               N
                             • Product 2                       Y                N                N               N
                             • Product 3                       Y                N                N               N



Adon. In May 2010, NIST awarded a contract to Adon Construction Company to install a
solar panel photovoltaic array at the NIST radio field site facility at Kekaha, Hawaii, to help
reduce electricity consumption. In July 2010, Adon submitted a request to install foreign-made
electrical inverters and enclosures because it would have to wait for 12 weeks for a U.S.
company to manufacture the product with specified materials—stainless steel or polyvinyl
chloride (PVC). Boulder management allowed Adon to install German-made inverters and
enclosures before it completed the exception determination in August 2010. Construction
work was completed and solar panels were commissioned to use in November 2010.

The NIST Director finally approved the waiver request submitted by Boulder management in
December 2011—18 months after the initial installation of the foreign-made materials.9
Meanwhile, NIST could not close out the contract because of the “unauthorized” installation of
the foreign-made materials. NIST agreed this was an exceedingly long time but stated that the
Buy American process was new and this was the first waiver request. NIST also stated there
was no clear guidance regarding waivers, resulting in a drawn-out period of time between
installation and approval.

In the exit interview, NIST stated that its processes have improved as they have gained
experience handling the Buy American requirement issues. When we asked if NIST was
documenting what they had learned and their improved processes, the OFPM chief responded
that there was no time to do this because of the huge staff workload but that NIST was
implementing the improved procedures in practice. However, without formal documentation,
NIST may not be able to institutionalize the lessons learned to be able to benefit from this
experience.

Whiting-Turner. NIST awarded the largest construction contract to Whiting-Turner ($83
million—about half of NIST’s total Recovery Act construction funds available for contracts) for
an extension to NIST Boulder Campus Building 1. The extension will accommodate a new


                                                            
9
  The Director signed a ratification of the bureau’s prior determination that the specified items were not produced
in the United States and its decision to grant Adon’s exception request.


FINAL REPORT NO. OIG-12-028-A                                                                                                     9
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

state-of-the-art laboratory used for measuring high-frequency electronics, advanced materials
research, and other areas of study.

In July 2011, September 2011 and January 2012, Boulder management allowed Whiting-Turner
to install foreign-made materials from China without waiver approvals. Whiting-Turner
requested six Buy American waivers but installed the following three products before NIST had
completed the required exception determination:

       1. lighting ballasts and compact fluorescent lamps, installed in July 2011,
       2. GE T-5 lamps installed in September 2011, and
       3. electric floor box trim installed in January 2012.

Not until February 2012—6 months after installation of products 1 and 2 above—did Boulder
management complete the exception determination and prepare to submit the waiver requests
to the NIST Director. NIST justified the lack of timely actions because the contractor installed
the materials at its own risk in order to maintain the completion date schedule. NIST stated
that the contractor was also aware that if the requested waivers were not approved, the
contractor would have to reinstall the materials in accordance with Buy American
requirements.

Performing exception determinations and obtaining waiver approval retroactively after
contractors have installed foreign-made products are not in compliance with the FAR and
NIST-08-09. Further, even though NIST could order contractors to remove foreign-made
products if it later determines that an exception does not apply, doing so will only result in
contract delays and complications.10

       B.       The “Non-availability” Determination Was Not Made Before Contract Award

For the contract awarded to Whiting-Turner, our review found that NIST should have made an
exception determination before the contract award. FAR subpart 25.6 and NIST-08-09 require
that exception determinations be requested and completed prior to the award of a contract
whenever the need for an exception is foreseeable. The requested waiver materials appear to
be common electrical lighting or power components. For example, there are many U.S.-made
energy-efficient fluorescent T-5 lamps and ballasts. However, the contractor claimed that to
meet the project specifications, it needed T-5 lamps built for a 30,000-hour life cycle, which are
not available in the United States. NIST reported that its market research confirmed that the
30,000-hour T-5 lamps are not made in the United States or any other approved treaty
country.


                                                            
10
   FAR subpart 25.607(c)(3) states, “A determination to retain foreign construction material does not constitute a
determination that an exception to section 1605 of the Recovery Act or the Buy American Act applies, and this
should be stated in the determination. Further, a determination to retain foreign construction material does not
affect the Government’s right to suspend or debar a contractor, subcontractor, or supplier for violation of section
1605 of the Recovery Act or the Buy American Act, or to exercise other contractual rights and remedies, such as
reducing the contract price or terminating the contract for default.”


FINAL REPORT NO. OIG-12-028-A                                                                                    10
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

We also contacted the architect and engineering (A/E) firm.11 A/E staff stated that they were
aware and very diligent in their preparation and revisions of the construction documents for
this contractor to meet the contract’s Buy American requirements. A/E staff also stated that
extensive hours of research have been expended to revise the construction documents since
this project was designed. In addition, A/E staff stated that they provided recommendations to
this contractor during the contract submittal process to ensure conformance with the Buy
American provision. However, NIST, not the A/E firm, approved the official contract submittals.

Nonetheless, the required use of 30,000-hour life-cycle T-5 lamps was included in the final
project specifications approved by NIST. Based on our research, it is common knowledge that
such lamps are only made by foreign countries. However, NIST did not perform the exception
determination before contract award as required by NIST-08-09 and the FAR.

Recommendations

We recommend that the Under Secretary of Commerce for Standards and Technology direct
NIST AMD and OFPM Buy American officials to:

       1.	 Review and update NIST’s internal standard operating procedures for Buy American
           exception determinations and waiver approvals.
       2.	 Conduct additional Buy American and NIST internal procedures training for the staff,
           especially on the need to conduct exception determinations before the contract award
           whenever possible.




                                                            
11
  NIST hired an architect and engineering firm to revise the contract bidding documents including project
specifications.


FINAL REPORT NO. OIG-12-028-A                                                                               11
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL


III.	         Lack of Adequate Oversight Resulted in Inaccurate/Incomplete Recovery
              Act Data Posted on Government Websites

NIST management did not ensure transparency of Recovery Act recipient data posted to the
following government websites:

        •	 5 of 18 Recovery Act contracts appear to have underreported jobs created and 

           retained, posted on Recovery.gov, and 

        •	 13 of 18 Recovery Act contracts had incorrect contract performance period end dates,
           posted on the Federal Procurement Data System–Next Generation (FPDS-NG).12

The requirements of FAR subpart 5.7 enhance transparency to the public for contract actions
funded in whole or in part by Recovery Act funds. Sections 1511 and 1512 of the Recovery Act
require data on recipient use of funds to be posted on government websites. This reporting
requirement is part of the President’s and Congress’s commitment to provide an
unprecedented level of transparency and accountability on the use of Recovery Act funds. In
addition, ensuring the accuracy of this information has been central to the administration’s
efforts to implement the Federal Funding Accountability and Transparency Act of 2006.13 As a
result of this inaccurate or missing information, many NIST construction projects did not fully
meet Recovery Act transparency requirements.

        A.      The Number of Jobs Created and Retained with the Recovery Act Funds Was Underreported

As of December 31, 2011, 5 of the 18 Recovery Act contracts, which represent total funding of
$21.7 million, reported zero jobs created and retained for the past five reporting quarters on
the Recovery.gov website. During this period, these contracts together disbursed $12.7 million
in Recovery Act funds, which could have funded tens of thousands, if not more, labor hours.

In response to our inquiry, NIST stated that it had already contacted the construction
contractors regarding the zero job numbers they reported. The contractors informed NIST
that these job numbers were correct because they consider a job not created or retained if
they moved the employee back and forth from the Recovery Act project to a non-Recovery
Act project. NIST officials stated that the contractors did not report the created and retained
jobs because they were confused about which jobs needed to be reported. NIST officials stated
the contractors did not realize that they needed to report jobs even if the jobs had existed
before the Recovery Act funding and were not going to be terminated when the funding ran
out.

 



                                                            
12
   The Federal Procurement Data System-Next Generation is a database management system used for all federal 

contracts.

13
   Pub. Law No. 109-282. The goal of this act was to empower every American with the ability to hold the 

government accountable for each spending decision. 



FINAL REPORT NO. OIG-12-028-A                                                                               12
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

OMB Memorandum M-10-08, part 2, section 5.3, provides guidance for Recovery Act job
calculations based on full-time equivalents (FTEs). In calculating FTEs, the number of actual
quarterly hours worked on Recovery Act–funded jobs is divided by the number of hours
representing a full-time quarterly work schedule for the kind of job being estimated.

We have concluded that NIST officials did not provide adequate jobs calculation guidance to
the contractors for correctness and transparency, as required by the Recovery Act. OMB
clearly states that the jobs calculation formula is based on hours worked on Recovery Act
projects. And with the amount of funds already spent on the five contracts, the contractors
would have financed tens of thousands, if not more, of labor hours. NIST must train its staff and
educate contractors on the jobs calculation formula, determine whether other contractors’ job
reporting is reasonable based on the spending level, and correct the reporting on the
Recovery.gov website.

    B. Incorrect Contract End Dates Were Posted in the FPDS-NG

For 13 of the 18 Recovery Act contracts, NIST posted incorrect contract performance end
dates in the FPDS-NG database (see table 6). In 4 of the 13 cases, the discrepancy was more
than 100 days.

Department Procurement Memorandum 2009-04, p. 9, requires bureau procurement officials
to conduct monthly FPDS-NG data validation and verification of 100 percent of actions
awarded with Recovery Act funds. NIST’s SOP 07-09, section 6.0(B)(1), requires that all
postings to FPDS-NG be reviewed by NIST for quality control and compliance.

NIST stated that the performance dates were entered into the database at time of the award.
NIST stated that subsequent issuance of the contracts’ notice to proceed letters and contract
extensions made the dates incorrect. It appears that NIST did not perform the required
monthly review of these data. Therefore, these errors were not detected.

 




FINAL REPORT NO. OIG-12-028-A                                                                   13
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

Table 6. Incorrect Contract End Dates in FPDS-NG
Contractor                  Original           FPDS-NG                     Days
                            End Date           End Date                 Difference
Adon                              12/15/2010       12/30/2011                380
Construction
Legatus6                          07/19/2012       12/31/2012                165

Universal Business                08/15/2011       12/30/2011                137

Whiting-Turner                    02/13/2012       06/01/2012                109

SEI Group                         04/27/2012       06/30/3012                64

Grimberg/Amatea JV                05/06/2012       06/30/2012                55

McHenry                           11/22/2011       12/31/2011                39

Biscayne Contractors              09/22/2011       09/30/2011                 8

Milestone Construction            03/22/2012       12/31/2011                82

J&L Mavilia                       03/26/2012       02/28/2012                27

Therrien Waddell                  05/14/2012       04/30/2012                14

L&M Construction                  04/12/2012       03/31/2012                12

Milestone Construction            01/04/2012       12/31/2011                 4

Source: OIG, based on NIST data

Recommendations

We recommend that the Under Secretary of Commerce for Standards and Technology direct
NIST AMD officials to:

    1.	 Provide proper training to staff and contractors on the OMB jobs calculation formula
        for jobs created and retained and ensure that job postings are correctly reported on the
        Recovery.gov website.
    2.	 Ensure that Recovery Act contract performance end dates are reviewed and corrected
        on the FPDS-NG website.




FINAL REPORT NO. OIG-12-028-A                                                                 14
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


IV. Inadequate Controls Led to Deficiencies in Award Administration

Effective award administration controls decrease the risks of litigation and improper use of
Recovery Act contract funds. We tested the implementation of 12 control procedures, detailed
in appendix A, and found inconsistent implementation of three key controls:

       •	 legal reviews were not performed for 4 of 18 contracts,
       •	 COTR delegation and appointment letters were not issued or signed in a timely manner
          for 11 of 18 contracts, and
       •	 Recovery Act fraud training was not conducted by contractors for 3 of 18 contracts and
          was not conducted in a timely manner for 1 contract.

       A.	 NIST Did Not Consistently Perform Legal Reviews

For 4 of the 18 Recovery Act contracts totaling $7.5 million, NIST did not perform legal
reviews before award issuance. This action is specified in Department of Commerce
Administrative Order 208-5.14 By failing to obtain prior legal reviews, NIST risks harming the
government’s interest in the event of contract protests, disputes, or appeals. In response to our
draft report, NIST stated that the reviews were missed because the lack of additional resources
created an overwhelming workload, stress, and many hours of overtime for staff. NIST
continued that staff is now fully aware of the legal review requirement and will follow policies
and procedures.

In 2005, an OIG audit of NIST’s procurement practices noted this same legal review issue.15
This audit found that 37 of 82 NIST contracts were not submitted for legal reviews. In response
to the 2005 audit, NIST responded it would take the following corrective actions:

       1.	    meet with the Office of General Counsel and develop review requirements,
       2.	    develop NIST internal policy regarding documenting responses to legal reviews,
       3.	    develop NIST internal policy regarding legal review requirements, and
       4.	    add policy documents to NIST internal website.

In response to our draft report, NIST stated that it did develop policy in response to the 2005
audit and submitted supporting documentation. However, this lack of control in consistently
receiving legal reviews revealed a deficiency in the awarding process for these contracts.
                                                            
14
   U.S. Department of Commerce, October 1984. Contracting (Procurement) Review and Approval Requirements, 208-
5. Washington, D.C.: Department of Commerce. This states that the contracting authority exercised shall be
subject to legal review by the Assistant General Counsel for Administration, or designee, before execution and/or
issuance of (1) all solicitations and awards involving a government-estimated amount of $250,000 or more where
price offered will be the predominant basis for award and (2) all other solicitations and awards in excess of
$100,000. U.S. Department of Commerce, January 2010, Procurement Memorandum 2010-04 updated the DAO
by raising the above monetary thresholds from $250,000 to $1 million and from $100,000 to $350,000 and
transferring responsibility for legal reviews to the Assistant General Counsel for Finance and Litigation.
15
   U.S. Department of Commerce, September 2005. NIST’s Procurement Practices Have Improved but Additional
Challenges Remain, BSD-16656-5-001. Washington, D.C.: Department of Commerce OIG.


FINAL REPORT NO. OIG-12-028-A                                                                                   15
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

    B.	 NIST Did Not Reinforce Contract Management Responsibilities by Issuing Timely COTR
        Delegation and Appointment Letters

For 11 of 18 Recovery Act contracts (totaling nearly $80 million), COTR delegation and
appointment letters were signed 5 to 123 days after NIST awarded the contracts (see table 7
below). However, we noted that a COTR was named in each of the contracts when awarded.

Table 7. COTR Appointment Letters Signed After Contract Award
  Number of Days After             Number of              Total Contract
  Contract Was Awarded             Contracts            Amounts (in millions)
           1–30                       3                       $14.9
            31–60                       2                        13.3

            61–90                       5                        41.3

           91–123                       1                        10.1

             Total                      11                      $79.6

Source: OIG, based on NIST data

The Commerce Acquisition Manual states that to involve the COTR in the advance acquisition
planning process, the agency should issue formal delegation and appointment COTR letters
early in the acquisition process.

These COTR letters acknowledge, list, and document the agreed-on COTR management
responsibilities for oversight of contracts. By signing the letter, the COTR agrees to

    1.	 monitor the technical efforts being performed under the contract,
    2.	 maintain an arms-length relationship with the contractor (to avoid conflicts of interest)
        and ensure that NIST avoids conflicts of interest,
    3.	 advise the contracting officer of any potential problems under the contract,
    4.	 assure contract performance in accordance with terms, conditions, and specifications,
        and
    5.	 document COTR actions and decisions taken and maintain adequate records.

NIST management could not explain why the letters were not signed or issued in a timely
manner. We attribute this control weakness to a lack of oversight and poor planning.
Consequently, the COTR responsibilities were not reinforced for up to 123 days, to ensure
proper Recovery Act contract oversight, management, and deliverables. Without this
reinforcement, NIST management cannot be sure that (1) the contracts were monitored for
potential startup problems; (2) the contracts were carried out according to terms, conditions,
and specifications; and (3) the contractor did not conduct unauthorized contract administration
actions.




FINAL REPORT NO. OIG-12-028-A                                                                       16
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       C.	 Contractors Did Not Conduct Timely Recovery Act Fraud Training

For 3 of the 18 Recovery Act contracts totaling $24.5 million, contractors did not conduct the
required fraud prevention training. NIST’s procurement flash notice16 requires all contractors
funded by the Recovery Act to provide fraud prevention training to all employees involved in
the contracts within 2 weeks of receipt of the contract awards and submit documentation of
the training to NIST (which, in turn, must submit it to OIG).

NIST could not provide evidence of any attempt to require the three contracts to conduct this
training. We also found that for one contract (totaling $24.8 million), the contractor conducted
the training 7 months after the contract was awarded.

By neglecting to ensure that training is performed in a timely manner, NIST management
increases the risk of fraud, waste, and abuse of Recovery Act funds. This lack of control in
consistently enforcing and receiving documentation of this required training revealed a
deficiency in the award process of these contracts.

Recommendations

We recommend that the Under Secretary of Commerce for Standards and Technology direct
NIST AMD officials to:

       1.	 Provide documentation of the agreed-on corrective actions for legal reviews from the
           2005 audit to OIG.
       2.	 Review the contract award process to correct the inconsistencies in obtaining legal
           reviews, issuing COTR delegation letters, and conducting fraud prevention training.
       3.	 Require the three contractors that did not complete the fraud prevention training to do
           so and submit documentation to NIST.
 




                                                            
16
     National Institute of Standards and Technology, Procurement Flash Notice 10-0001, February 22, 2010.


FINAL REPORT NO. OIG-12-028-A                                                                               17
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
We received, from the Under Secretary of Commerce for Standards and Technology, NIST’s
written comments on our draft report (see the entire memorandum from May 18, 2012, in
appendix C). For our final report, we have considered this response and made technical
revisions, as deemed appropriate, in the body of this report. NIST agreed with the findings and
recommendations. We have summarized NIST’s response below.

Finding I, recommendation 1: Agency concurred. NIST stated they would develop an SOP for
contract extensions by September 30, 2012. NIST stated that in the meantime, staff has been
properly counseled to ensure that future contract extensions are administered timely. NIST
further stated that the clause in subpart 52.517-9 of the FAR would not be appropriate to
include in construction contracts and most of NIST construction contracts did not include
options to extend terms of the contracts. However, we found this clause (subpart 52.517-9 of
the FAR) in 2 of the 18 construction contracts and found options in 14 of the 18 contracts. We
suggest that during the development of the SOP, NIST clarify what clause should be used to
extend contract terms, including performance periods, for construction contracts.

Finding I, recommendation 2: Agency concurred. NIST stated they would create a master
schedule–type management tool for better oversight and monitoring of the contracts to
prevent additional slippage. NIST also stated that they have extended the end dates for the six
contracts in question.

Finding I, recommendation 3: Agency concurred. After our meeting with NIST on February
2, 2012, NIST modified this contract on February 21, 2012, and stated that the project was
completed on March 28, 2012.

Finding II, recommendation 1: Agency concurred. NIST agreed to review and update its
internal SOPs for Buy American exception determinations and waiver approvals.

Finding II, recommendation 2: Agency concurred. NIST agreed to conduct additional Buy
American and NIST internal procedures training for the staff, especially on the need to conduct
exception determinations before the contract award whenever possible.

Finding III, recommendation 1: Agency concurred. NIST agreed to provide proper training to
staff and contractors on the OMB jobs calculation formula for jobs created and retained and
ensure that job postings are correctly reported on the Recovery.gov website.

Finding III, recommendation 2: Agency concurred. When responding to the draft report,
NIST informed us that modifications extending the contract performance end dates were not
included in contract files, resulting in incorrect postings in the FPDS-NG database. NIST
provided supporting documentation that it has developed procedures to ensure that the
Recovery Act contract performance end dates are reviewed and corrected both in contract
files and on the FPDS-NG website.


FINAL REPORT NO. OIG-12-028-A                                                                     18
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

Finding IV, recommendation 1: Agency concurred. NIST agreed with the recommendation
and provided policy and procedure documentation in response to the 2005 OIG audit
recommendations. However, we had asked NIST for this documentation during the audit, and
NIST did not provide it until receiving our draft report. This omission calls into question NIST’s
ability to provide documents in a timely manner during the course of this audit.

Finding IV, recommendation 2: Agency concurred. NIST agreed to review the contract
award process to correct the inconsistencies in obtaining legal reviews, issuing COTR
delegation letters, and conducting fraud prevention training.

Finding IV, recommendation 3: Agency concurred. NIST agreed to require the three
contractors that did not complete the fraud prevention training to do so and submit
documentation to NIST.


 




FINAL REPORT NO. OIG-12-028-A                                                                   19
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope,
and Methodology
This audit was initiated in December 2010 as part of our continuing oversight of NIST’s
Recovery Act construction contracts. The audit was to determine how effectively NIST
monitors the contracts and uses monitoring results to improve its acquisition program. Our
audit objectives were to determine whether NIST’s (1) policies and procedures were sufficient
for evaluation of cost, specifications, and performance results, (2) contract award and
administrative practices complied with applicable laws and regulations, including specific
Recovery Act requirements, and (3) acquisition staff communicated problems with the projects
to NIST management.

To satisfy these objectives, we reviewed NIST’s compliance with applicable laws, regulations,
policies, and procedures, including

    •	 the American Recovery and Reinvestment Act of 2009,

    •	 Federal Acquisition Regulation,

    •	 48 C.F.R. chapter 13—Commerce Acquisition Regulation,

    •	 DAO 208-5- Contracting (Procurement) Review and Approval Requirements ,OMB-M-
       10-08- Updated Guidance on the American Recovery and Reinvestment Act—Data Quality,
       Non-Reporting Recipients, and Reporting of Job Estimates,

    •	 NIST SOP 08-09 Recovery Act—Buy American Act—Construction Materials,

    •	 NIST SOP 10-09 Completion of Mandatory Monthly Recovery Act Reports for the
       Department of Commerce/Office of Acquisition and Management (OAM),

    •	 NIST SOP 07-09 Recovery Act Public Posting and Reporting Requirements,

    •	 NIST SOP 12-09 Recovery Act Reporting Quality Data Review,

    •	 NIST SOP 07-09 Recovery Act Public Posting and Tracking,

    •	 NIST SOP 02-09 Safety in Construction Acquisitions,

    •	 NIST SOP 05-09 Small Business Review,

    •	 NIST SOP 06-09 Recovery Act Compliance Review Procedures, and

    •	 Department of Commerce Procurement Memo 2009-04.




FINAL REPORT NO. OIG-12-028-A                                                                   20
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

To review NIST’s contract pre-award process, we reviewed all 18 NIST Recovery Act
construction contracts and performed the following: (1) met with NIST officials, staff, and
stakeholders responsible for contracts and project oversight and performance, (2) evaluated
NIST's contract monitoring activities such as site visits and report reviews, (3) evaluated
policies and procedures established for construction contracts and Recovery Act requirements;
(4) conducted file reviews; and (5) assessed how NIST uses the results of the contract
monitoring activities to manage the award.

Regarding data reliability, we did not rely on computer-generated information for this audit. A
NIST contracting officer informed us that its paper-based system was the official file of record.

We conducted an analysis of 12 attributes for the pre-award process: (1) contract type, (2) full-
open competition process (3) small business set-side reviews conducted, (4) procurement
requests obtained, (5) legal reviews for all awarded contracts, (6) source selection
documentation in contract award files, (7) FBO postings as required, (8) Recovery Act clause in
contracts, (9) Recovery Act funds separate and identified in contracts, (10) BAA treaty clause in
the contracts, (11) COTR named in contract, and (12) fraud training clause in contracts.

We performed our work in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We conducted our review from December 2010 through February 2012 under the authority of
the Inspector General Act of 1978, as amended and the Departmental Organization Order 10-
13. We performed our work at NIST facilities in Gaithersburg, Maryland, and Boulder,
Colorado.




FINAL REPORT NO. OIG-12-028-A                                                                       21
  DEPARTMENT OF COMMERCE
U.S.                                                                                  OFFICE OF INSPECTOR GENERAL


Appendix B: Recipient Information 

Contractor Name                      Construction            Contract Award 
                                     Contract                Date
                                                                                              Project Description
                                     Award 
                                     Amounts
Adon Construction                       $1,415,000  5/21/2010                  Solar panels—Hawaii 

Biscayne Contractors                      2,265,265  7/12/2010                 Robotics test facility 

Grimberg/Amatea Joint Venture           10,113,025  7/30/2010                  NCNR‐high‐efficiency pumps & infrastructure 
                                                                               support

Grimberg/Amatea Joint Venture           24,842,996  9/23/2010                  National fire research laboratory

McHenry, Inc., Clyde                        561,982  9/17/2010                 Windows replacement 

Milestone Construction                    5,912,254  7/26/2010                 Consolidated logistics facility 

Milestone Construction                    6,273,741  7/21/2010                 Emergency services consolidated station

Nika Technologies                           229,914  1/8/2010                  Services for Capital Improvement Group

PCL Construction                          2,766,112  7/15/2009                 Boulder Building 1 

SEI Group, Inc.                           8,330,395  9/23/2010                 Liquid helium recovery 

Therrien Waddell, Inc.                    2,680,275  9/23/2010                 Net‐Zero Energy Residential Testing Facility

Whiting‐Turner Contracting              82,835,066  4/8/2010                   B1E interior

Legatus6, LLC                             4,899,531  9/13/2010                 Solar panel array—Gaithersburg

Universal Business                        1,058,229  8/9/2010                  Energy‐efficient lighting and sensors

J&L Mavilia, Inc.                       12,297,793  8/9/2010                   HVAC renovations 

J&L Mavilia, Inc.                                        0   7/15/2010         Laboratory equipment installation

L&M Construction                          6,330,264  8/18/2010                 Laboratory fume hood replacement

L&M Constructiona                         2,872,021  7/15/2010                 Task orders for fit‐up of equipment

                                        $175,683,862
Total 
 
Source: NIST
a
  According to NIST, this contract was funded with Recovery Act Science and Technical Research and Services
funds.

 



FINAL REPORT NO. OIG-12-028-A                                                                                          22
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response
                                              !~'.                  UNITED STATES DEPARTMENT OF COMMERCE
                                                                    National Institute af Standards and Technology
                                              \~
                                                .,. ,.,t:tf/ .
                                                                    Gaithersbur g, M aryland 20899 ·
                                                                    OFFICE OF T HE DIRECTOR




                  MAY 1 8 2012


             MEMORANDUM FOR Ann C . Eilers
                            Principal IBector General for Audit and Evaluation

             From:         Patrick Gallagher   )          .J2'l -
                           Under Secretary ofC     ~~tandards and Technology
             Subject:      NIST Response to the draft report, Oversight Activities ofNJST's Recovery Act
                           Construction Contracts Need Improvement

             Thank you for the opportunity to review the Office of Inspector General (OIG) draft report,
             Oversight Activities ofNJST's Recovery Act Construction Contracts Need improvement, dated
             April 13, 2012. Staff from the National Institute of Standards and Technology' s (NlST) Office
             of Facilities and Property Management (OFPM) and Acquisition Management Division have
             reviewed the draft report and offer the comments in the attached document. NIST concurs with
             the recommendations in the report.

             If you have any questions, please contact Rachel Kinney at (301 ) 975-8707.

             Attachment




                                                                                                       NISr

FINAL REPORT NO. OIG-12-028-A                                                                                    23
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL



                        Nationallnstltule of Standards and Technology Comments to the
               Office of Inspector Ctneral Draft Report Over.~iglrr Activifles ofNJST's Recovery Act
                                    CotWmction Contracts Need Improvement



          Page 4, Paragra ph I :

          The Office of Facilities and Property Management (OFPM) assigned designated project
          managers for the Recovery Act construction projects in Gaithersburg and Boulder under the
          direction of a senior Program Manager at each site. There were three to four contracting
          specialists and one contracti ng officer assigned to all of the Gaithersburg construction projects
          and one contracting specialist and one contracting officer assigned to the Boulder construction
          prOJects. Due to the high turnover within NIST's Acquisition Management Divtsion (AMD), it
          was difficult to maintain consistency in the oversighL While OFPM and AMD each had their
          own project tracking mechanisms in place and v.orked together to resolve individual project
          tssues, the high workload and insuffictent resources did not alJow them to develop a coordinated
          master 0\iersight Plan.

          Corrective Action- AMD and OF PM have established bi-v.eeldy Recovery Act management
          meetings and a comprehensive spreadsheet to monitor and track project performance.

          Page S, Paragraph 2:

          FAR Subpart 52.217-9 would not have been appropriate to include in construction contracts.
          According to FAR Subpart 17.208(g), contracting officers are to insert a clause that is
          substantially the same as the clause 52.217-9, Option to Extend the Term of the Contract. in
          solicitations and contracts when the mcluston of an option is appropriate. Options are normalJ}
          IOCiuded in service contracts to extend the con11ae1at the end of the last option period of the
          contracL Options are included when the contract is awarded. Most of the construction contracts
          did not include options.

          Pagr. 6, Recommend ations:

          "We recommend that the Under Secretary of Commerce for Standards and Technology direct
          NJST to accomplish the following:

                  I. Establish standard operating procedures for reviewing, monitoring, and approving
                     contracts for extensions in a time I} manner."

                     NIST concurs with this recommendation and will develop a standard operating
                     procedure (SOP) by September 30, 2012. In the meantime. the AMD construction
                     team has been counseled by the NIST Bureau Procurement Official (BPO) to ensure
                     that all future contracts requiring extenstons are admirustered timely. In addition, the


                                                                                                            1
                                                                                                                      

                                    



FINAL REPORT NO. OIG-12-028-A                                                                                   24
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL



                 reviewing, monitoring, and approving of the contracts for extensions in a timely
                 manner are the responsibilities of the contracting specialisUofficer who is assigned to
                 administer the contract.

             2. "Extend the performance period for the six contracts that either have missed or are at
                risk of missing their performance end dates and create a master schedule-type
                management tool for beuer oversight and monitoring of the contracts to prevent
                additional slippage."

                NIST concurs with this recommendation and has extended all six contracts. NIST
                will create a master schedule-type management tool for better oversight and
                monitoring of the contracts to prevent additional slippage.

             3. " Develop a plan to complete the construction work specified in the Universal
                Business Solutions contract."

                The Universal Business Solutions contract was modified on February 21 , 2012 to
                extend the contract to April 13, 2012. The project was completed on March 28, 2012
                and the final acceptance letter dated Apri I 10, 2012 was sent to the contractor
                effective the same day.



     Page 9 (Ad on Construction - Kauai Solar Arrav Project):

     NIST provides the following additional information as to why the Solectria unit was not
     approved:

            At the time of the review, Solectria could have provided 15kw inverters, however the
            enclosures did not meet the project specification for being stainless steel or polyvinyl
            chloride (PVC). Solectria's standard enclosures were either painted aluminum or
            polyester powder coated steel. Solectria bad never manufactured an invener enclosure
            with materials equivalent to the project specifications. Solectria indicated that they could
            provide a stainless steel enclosure but the enclosure would be a prototype for them
            without a proven record of performance. Additionally, Solectria requi red an additional
            12 weeks for the design and manufacturing of the prototypical unit. An additional twelve
            weeks would have ext.ended the project schedule and would have resulted in a projected
            cost increase to the project of five to ten percent due to contractor extended overhead. It
            was determined that a prototypical unit would not be acceptable because of the schedule
            delays, potential cost increases, the remote location in Kaua.i, and that the painted
            aluminum, or polyester powder coated steel, enclosures were not an acceptable
            alternative to the specified stainless steel or PVC as both require a good deal of
            maintenance and are prone to corrosion.
                                                                                                         2         




FINAL REPORT NO. OIG-12-028-A                                                                                25
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL



  Page 9, Paragraph 3:

  NIST recommends adding additional wording so that the sentence reads:

  "When we asked ifNIST was documenting what they had learned and their improved processes.
  the OFPM chief responded that they have not had time to do formal documentation yet because
  of the huge staff workload, but that they were implementing the improved procedures in
  practice."

  Page 10, Paragraph 3:

  The report states " ....even though NIST could order the contractors to remove foreign-made
  products if it later determines that an exception does not apply, doing so wiiJ only result in
  contract delays and complications ...." The alternative to allowing the contractor to proceed at its
  own risk with installation of the $27,000 ofT-5 lamps would have put the end date ofthe
  contract in jeopardy and could have conceivably brought the construction and current ongoing
  research within the building to a halt, thus preventing NIST from fulfilling its mission and
  costing taxpayer dollars in non-productivity. Today, the building is occupied and research
  continues unimpeded as substantial completion of construction activities occurred as scheduled
  on February 13,2012.

  Page 10, Paragraph 4:

  The report states" ... the contractor claimed that to meet the project specifications, it needed T-5
  lamps built for a 30,000-hour life cycle, which are not available in the United States ... ". The
  30,000-hour life cycle lamp is not only a contractor claim. it is a design specification for the
  project that helped the project meet the energy modeling done by the architect and engineering
  finn (AlE) to meet the efficiency requirements of the Leadership in Energy and Environmental
  Design (LEED) design. The U.S.-made T-5 lamps found by NIST after extensive research were
  built for only a 20,000-bour life cycle and did not meet the requirements developed during the
  energy modeling performed during AlE design for the project.

  Page 11, Recommendations:

  "We recommend that the Under Secretary of Commerce for Standards and Technology direct
  NIST Buy American officials to:

      1. Review and update NJST's internal standard operating procedures for Buy American
         exception determinations and waiver approvals based on past lessons learned
          implementing this requirement.



                                                                                                         3




FINAL REPORT NO. OIG-12-028-A                                                                                26
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL



      2. Conduct additional Buy American and NTST intemal procedures training for staff,
         especially on the need to conduct exception determinations before the contract award
         whenever possible."

      NIST concurs with both recommendations.


  Page 14, Recommendations:

  "'We recommend that the Under Secretary of Commerce for Standards and Technology direct
  NISTto:

      I. Provide proper training to staff and contractors on the OMB jobs calculation formula for
         jobs created and retained and ensure job postings are correctly reported on the
         Recover.gov website.
      2. Ensure that Recovery Act contract performance end dates are reviewed and corrected on
         the FPDS-NG website."

      NIST concurs with both of the recommendations. For the second one, NIST has developed
      procedures to ensure the Recovery Act contract performance end dates are reviewed and
      corrected (see attached documents).

  Page 14, first bullet:

  "legal reviews were not performed for 4 of 18 contracts."

  NlST provides the following additional information:

  The requirement to award 16 construction contracts within less than 18 months without
  additional resources created an overwhelming workload, stress, and many hours of overtime for
  the AMD construction team and some reviews were missed. The contracting specialist who did
  not obtain the legal reviews for three out of the four contracts has left NlST. The AMD
  construction team is now fully aware of the requirement for legal review of all contract award
  documents and will be following the Procurement Memorandum issued January of2010.

  Page 15, paragraph 1:

  The 2005 audit finding recommendation was "Work with the Office of General Counsel,
  Contract Law Division to: (I) consider developing legal review criteria for General Services
  Administration's Federal Supply Schedule orders, and orders placed on Blanket Purchase and
  Ordering Agreements and on Indefinite DeUvery and Indefinite Quantity contracts; and develop
  and implement a policy for resolving legal comments on contract actions."




                                                                                                    4




FINAL REPORT NO. OIG-12-028-A                                                                           27
  DEPARTMENT OF COMMERCE
U.S.                                                                      OFFICE OF INSPECTOR GENERAL


 The NTST conlTacting office did develop policy in response to the 2005 audit (see attached
 documents). The Department of Commerce issued policy on lhe legal review requirements and
 issued a revision in January of 20 I 0 (see attached documents).

 Page 16, Recommendations:

 "We recommend thatlhe Under Secrel81)' of Commerce for Standards and Technology direct
 NIST to:

     I. Provide documentation of the agreed-on corrective actions for legal reviews from lhe
        2005 audit to 010.
     2. Review the contract award process to correct the inconsistencies in obtaining legal
        reviev..-:;, issuing COTR delegation letters, and conducting fraud prevention training.
     3. Require the three contractors that did not complete lhe fraud prevention training to do so
        and submit documentation to NIST."

     NIST concurs with the recommendations and is providing policy and procedures documents
     in response to the 2005 audit (see attached documents).




                                                                                                     5




FINAL REPORT NO. OIG-12-028-A                                                                            28
  DEPARTMENT OF COMMERCE
U.S.                                                                                      OFFICE OF INSPECTOR GENERAL



   From;
   Sent:
   To;

   Cc;

   Subject:                                             alter Nobce to Proceed for Construction and Servlc:e
                               Contracts/Purchase orders - This will start immediately




   Team

   We are having a problem on Team A with Issuing a Notice to Proceed (NTP) for a construction project and Service
   contracts that require a Safety Plan or bonding. The NTP Is issued to the contractor after receipt and verification of
   bonding through the Treasury website. Most projects require the approval of a Safety Plan. The NTP will not be Issued
   until a safety plan nas been approved by the contracting officers safety represent~tive who is delegated by the
   contracting officer thro1.111h a letter delegation, similar to the COTR delegation letter.

   The Issue we have identified is, after the NTP is issued for XXX days, the actual period of performance Is never
   incorporated into the actual contract, CAward or FP05-NG. Performance period meaning the actual end date of the
   contract.

   In order to correct this problem, I am requiring the c.ontract specialist to issue the NTP and put the amount of days
   identofled in the solicitatiOn/scope of work and the actual end date of the contract on the NTP. This will apply to all
   contract awards that require a NTP to be Issued.

   After you Issue the NTP. you will need to issue a unilateral modification w ithin 3 days to the contract stating the
   following:

   The N«R to Proceed was Issued on JIX/XJt/10( for XX do~ resulting in the ~rlod of ~rformance on this contract ta end
   on month, date, year (December 12. 2013). Per the terms of the contract, the contractor Is required to comp/t!te the
   contract by this dote. Any change to the performance period Is a change to the terms ond conditions of the contract ond
   must ~ opprovtd by the canrrocting officer ond reflected in o modification to the controct.

   If you have any questions regarding this process, please let me know so we can discuss.




FINAL REPORT NO. OIG-12-028-A                                                                                                29
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL



                          POLIC\ \ ~0 PRO( LOt RE\ \IEMOlt-\.\ lll M 31~

      V1 EMORANDl V1
                                   ACQUISITION MANAGEMENT DIVISION
      FO R:


      FROM:                        \iiCHAEL SZWED


      SLBJECT:                     RESPONDING TO LEGAL REVIEW

      F.FF'ECTJVE DATE:            04/1712006

      DATE OF ISSUA'\ CE:          04117n.006

      Al THORITY:                  FAR 1.602-2(c)



         PURPOSE: To establish procedures for responding to legal review comments.

         POLICY: All substantive comments made by legal counsel after his/her reVIew of
         acquisition documents must be responded to in writing by the assigned AMD staff
         member and forwarded to the attorney and the Acquisition Policy and Analysis Team

        BACKGROUND: NIST AMD previously had no formal guidance on how contracting
        personnel should address comments made by the DoC Contracts Law Division attorney
        when a review of acquisition documents had been completed. Comments had been
        addressed in a memorandum to the file and signed by the Contracting Officer. However,
        the attorney was often not informed how the acquisition staff addressed the comments.

         PROCEDliRE: In response to Ieaal re\ie"'s, the A \11 D staff member will discuss
         substantive comments with the attorney from the DoC Contracts Law Division for
         clarification. if necessary. A memorandum to the ftle addressing each comment and all
         action taken shall be prepared by the AMD staff member and reviewed and signed by the
         Contracting Officer. A copy of the memorandum shalt bee-mailed to the attorney or left
         in the attorney's mailbox in the AMD division office before distribution of the award.
         The legal review, including all comments. and the AMD response will be included in the
         acquisition file under the appropriate File Index Tab, and a copy of these documents shall
         be forwarded to the Acquisition Polic> and Analysis Team. The Analysis Team will
         keep the documents in a central file and a semi-annual review will be done to analyze any
         trends in the responses of both legal counsel and AMD staff that may require additional
         training or discuss1on.




FINAL REPORT NO. OIG-12-028-A                                                                         30
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL



                           POLICY ANO PRO( EI> UR£S MF.MORANI>l' M 3 16

        MEMORANDUM
                                    ACQUISITIONMA!'lAGEMENT DIVISION
        FO.R:


        FROM:                       JOSEPH WIDDUP


                                    LEGAL REVIEW REQUIREMENTS FOR ACQUISITIONS
                                    UNDER FSS CONTRACTS. FSS BP As, GWAC
                                    CONTRACTS, IDIQ CONTRACTS, ACQUISITIONS
        Sl iBJECT:
                                    fNVOL VING LEASING, AND ACQUISITIONS REQUrRING
                                    INCLUSION OF CONTRACTOR PROVIDED
                                    AGREEMENTS/CLAUSES/ADDENDA

        EFFECTIVE DATE:             02116/2007

        DATE OF ISSUANCE:           02/16/2007

        Al 'TH ORJTY:               FAR 1.602-2(c)



          PURPOSE: To establish policy for legal review of acquisitions relating to Federal
          Supply Schedule (FSS) contracts, FSS Blanket Purchase Agreements (BPAs), FSS BPA
          calls/orders, Govemmentwide Acquisition Contract (GWAC) orders, locally awarded
          Indefinite-Delivery, Indefinite-Quantity (IDIQ) orders, acquisitions involving leasing,
          and acquisitions whereby a Contractor tenders agreements/clauses/addenda for inclusion
          in a contract/order (software licenses. conference agreements, hotel booking agreements,
          etc.).

          POLICY: Contracting Officers (CO) shall obtain review of acquisition-related
          documentation from the DOC Office of General Counsel (OGC), Office of the Assistant
          General Counsel for Finance and Litigation, Contract Law Division (CLD) for the
          following actions:

                  (a) All solicitations conducted under FAR Subpan 8.404 (FSS), including stand­
                      alone FSS orders, acquisitions that will result in award of one or more FSS
                      BPAs, and award of individual FSS BPA orders/calls whereby the estimated
                      value of the indi vidual action exceeds $1 ,000,000.00.

                  (b) All solicitations conducted under GWAC contracts (NIH ECS, NASA SEWP,
                      etc.) whereby the estimated value of the action exceeds $ 1,000,000.00.




FINAL REPORT NO. OIG-12-028-A                                                                        31
  DEPARTMENT OF COMMERCE
U.S.                                                             OFFICE OF INSPECTOR GENERAL



     (c) All solicitations for IDIQ orders conducted under FAR Subpart 16.505
         whereby the estimated value of the action exceeds S I,000,000.00.

     (d) All awards resulting from solicitations described in (a). (b) or (c) above.

     (e) All soliciutions and awards imoh ing lease of any type, regardless of value

     (J) Awards whereby the apparently successful Offeror or, if after award. the
          ContJ&Ctor tenders agreement(s)/clause(s)laddenda of their own to NIST for
          NIST signature, including:

               a. Software licenses where the value of the award exceeds $100,000.00;

               b. Conference agreements, regardless of value of the award; or

               c. Lodging (motel/hOtel) agreements. regardless of value of the award.

          The CO shall ensure that the N /ST contracJ/order number appears on the
          agrtement(s)/clouse(s)/addenda, and the CO shall/aiM/ them as an
          Addendum to the specified contract/order number.




FINAL REPORT NO. OIG-12-028-A                                                            32
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


 Acquisition ~ianagement Group Home Page                                                                       tVO   f' 1J.~v                Page 2 of
                                                                                                                     ttl   lCO to -. . .
             • The Aequt5ltlon
               Giudebook
             • S8A SmaU Business Size
               standards
             • SeMCe Contract
               Act/Directory of
               OccupatiOns
             • Seven Steps to
               Perfomance Based
               SeMCe AcqutSibon Guide
             • Wage Determinations
                  Online



     !!fSNtST and DoC                                                  ~Other Agency Sites                     ISOther Agency
     Web Sites                                                                                                 Contracts
                                                                         • Bureau or Labor StatistiCS
             • AMD Internal Web Home                                     • DCAA                                  •   ARPA BAA InformatiOn
                                                                         • DoT IJsttng of Approved SurelleS
               Page                                                                                              •   GSA Advantage • FSS
                                                                         • Federal AcQuisition JumpstaUon
             • AMD External Web Home                                                                             •   GSA E-llbrary
                                                                         • GPO - Government Prlnong Office
               Page                                                                                              •   Mass Buy Homepage
                                                                         • NASA Procurement Library
             o NIST Internal Web Home                                                                            •   NASASEWP
                                                                         • OPM - Office ot Personnel
                  Page                                                                                           •   NIH Virtual Store
                                                                           Management
             • NIST External Web Home
               Page                                                      • S8A ·· Small Business
                                                                           AdmmtStration
             • NIST Admtnastrative
               Manual                                                    • UNICOR
                                                                         • VA - Veterans In Business
             • NJSTTechnicalendar and
               AdmtniStrabve calendar
             • DoC OAM Home Page
             • DoC Home Page
             • DoC Contract Law Division
             o DoC OSDBU OffiCe
             • DoC Information
               Techoology Management
                   Handbook



      ~$Policy and                                                     ~NIST AMO Policy and                    !lgCSTARS links and
      Regulations                                                      Procedures Memoranda                    Guidance
                                                                       (PPMs)
              • Coded Federal
                                                                         • PPM Index • PPM 309
                                                                                               l.t'              • CSTARS Autonumber Generator
                Regulations (U.S. House                                                                          • CSTAR5 Internal Web Page
                                                                          • PPM 100        •   PPM 310
                or Reps)                                                  • PPM 101        •   PPM 311
                                                                                                                 • Consohdattng/Deconsolldattng PRS
              • CompelJtion In                                                                                     and Creabng Multiple Awards (3/01)
                                                                          • PPM 103        •   PPM 312
                Contradlng Act (OCA)                                                       •   PPM 313~AT!O•     • MOD Reminders (3/22/01)
                                                                          • PPM 104
              • Contract Priclng                                          • PPM 105        o   PPM 31'1
                Reference Guides                                                           •   PPM 315
                                                                          • PPM 106
              • DoC Acquisition Polley                                                     •   PPM 316
                                                                          • PPM 200
              • DoC OAM Policy Ubrary                                     o PPM 201        •   PPM "101
              • ExecutiVe Orders and
                                                                          • PPM 202        •   PPM "102
                Procurement Policy
                                                                          • PPM 203        •   PPM 404
                lettErs
                                                                          • PPM 300        •   PPM 500
              • GAO's "RedBook"
                                                                          • PPM 301        •   PPM 502

 " ' - " - · , ,.,.,.;..._•• ~ -   : - - ........ . . _ _ _ ..   • 4

ARRA000-110




FINAL REPORT NO. OIG-12-028-A                                                                                                                         33
